OFFICE OF INSPECTOR GENERAL

AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION-
FUNDED PROGRAM IN NAMIBIA

AUDIT REPORT NO. M-000-14-002-P
DECEMBER 17, 2013




WASHINGTON, D.C.
Office of Inspector General



December 17, 2013

Mr. Kamran Khan
Vice President, Department of Compact Operations
Millennium Challenge Corporation
875 15th Street NW
Washington, DC 20005

Dear Mr. Khan:

This letter transmits the Office of Inspector General’s Audit of the Millennium Challenge
Corporation-Funded Program in Namibia. In finalizing the report, we considered your written
comments on our draft report and included those comments in their entirety in Appendix II of
this report.

The report contains eight recommendations to strengthen the Millennium Challenge
Corporation-funded program in Namibia. We acknowledge MCC’s management decisions on all
eight recommendations and final action on Recommendations 1, 2, 3, 5, 6 and 8.

We appreciate the cooperation and courtesy extended to our staff during this audit.

                                            Sincerely,

                                               /s/

                                            Robert L. Fry
                                            Acting Deputy Assistant Inspector General
                                            for Audit
                                            Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
http://oig.usaid.gov/
CONTENTS
Summary of Results ................................................................................................................. 1

Audit Findings ........................................................................................................................... 5

     Five of Six Renovated Schools Visited Had Construction Deficiencies .................................. 5

     Two of Six Renovated Schools Were Too Small to Accommodate Current Students ............ 6

     Teachers Lacked Training on Science Equipment Provided by MCC .................................... 6

     Monitoring and Evaluation Indicator Showed an Unexpected Decrease ................................ 7

     Textbooks and Cars Were Not Marked.................................................................................. 7

     Conservancy Grants Were Not Audited for Environmental Compliance ................................ 8

     Knowledge Transfer to Conservancy Members Was Limited................................................. 9

     Monitoring and Evaluation Plan Lacks a Training Indicator.................................................... 9

Other Matters........................................................................................................................... 11

     Staffing Limitations Could Impede Operation of the Grants Facility and
     Regional Study and Resource Centers ............................................................................... 11

     MCA-N Undertook Review of Spending............................................................................... 11

     Government-Imposed Fees Could Affect Conservancies .................................................... 12

Evaluation of Management Comments.................................................................................. 13

Appendix I—Scope and Methodology ................................................................................... 15

Appendix II—Management Comments .................................................................................. 17
SUMMARY OF RESULTS
The Millennium Challenge Corporation (MCC) signed a 5-year, $305 million compact with the
Republic of Namibia in 2008. The compact aims to reduce poverty and stimulate economic
growth through three projects totaling $262 million: 1

      The Education Project ($142 million) seeks to improve the effectiveness, efficiency, and
      quality of Namibia’s education sector through systematic reforms and interventions. The
      project involves renovating 47 schools and providing more than 1 million new textbooks to
      students across the country.

      The Tourism Project ($68 million) aims to improve the management and infrastructure of
      Etosha National Park, enhance the marketing of Namibian tourism, and develop the
      capacity of communal conservancies.

      The Agriculture Project ($52 million) attempts to increase the economic performance of the
      agriculture sector by strengthening the land tenure system, introducing improved rangeland
      management practices, and improving livestock production and sales.

The Millennium Challenge Account-Namibia (MCA-N) is the host-government entity charged
with implementing the terms of the compact. The compact entered into force in September 2009
and will end in September 2014. As of June 2013, MCA-N had committed approximately
$251 million (82 percent) of the Namibia compact.

The objective of this audit was to determine whether the MCC-funded Education and Tourism
Projects in Namibia were achieving their compact goals. The Office of Inspector General (OIG)
found the projects were achieving their goals, as detailed in the table on the following page, but
MCC and MCA-N could improve the projects’ implementation, as discussed in the findings.




1
    The remaining compact funds are primarily for program administration.

                                                                                                1
                         Project Goals and Achievements (not audited)
              Primary Project Goals                        Achievements Reported by MCA-N
                                                                   as of June 2013
1. Renovate 47 schools                               23 schools completed; remainder to be completed
                                                     by November 2013
2. Renovate 9 Community Skills and Regional          Projected completion of 8 by October 2013;
   Development Centers                               last facility by August 2014
3. Establish a National Training Fund to             Fund to be operational in late 2013
   award grants
4. Reform textbook acquisition process               Helped establish a Supply Chain
                                                     Management Unit to manage acquisitions
5. Deliver 1.3 million textbooks                     Delivered approximately 700,000 textbooks, with
                                                     final delivery scheduled for late 2013
6. Build 3 new regional study and resource centers   Projected completion by October 2013

7. Improve management and infrastructure             Began construction of facilities later than
                                                     anticipated at Etosha National Park but completion
                                                     still projected by the end of the compact
8. Increase tourism through improved marketing       Awarded contracts to improve public relations and
                                                     media; developed a tourist Web site
9. Develop ecotourism at communal conservancies      Provided training and technical assistance;
                                                     awarded grants


OIG found the following problems with the Education Project:

    Five of six renovated schools visited by OIG had construction defects (page 5). OIG
    observed cracks, leaking ceilings, doors unable to lock, and other problems. MCC officials
    said these problems would be addressed.

    Two of the six renovated schools OIG visited were too small to accommodate current
    students (page 6). One principal told OIG that the school had turned away 37 students
    because it did not have space for them. MCA-N officials said that designs of the schools
    were developed during compact development, and enrollment figures might have changed
    since then.

    Teachers lacked training on science equipment provided by MCC (page 6). MCA-N is
    providing training to new teachers, but not those currently in the field.

    A monitoring and evaluation indicator showed an unexpected decrease (page 7). MCA-N
    and MCC officials were investigating the issue to assess the validity of the indicator.

    Textbooks and cars were not marked (page 7). MCA-N officials said the cars were not
    marked because some in Namibia were not supportive of the United States, and the
    textbooks were not marked because of their large number.




                                                                                                       2
Regarding the Tourism Project, OIG found that:

   Conservancy grants were not audited for environmental compliance, as required by the
   compact (page 8). MCA-N officials were unaware of the requirement, but MCC officials said
   that MCA-N had provided appropriate oversight.

   Knowledge transfer to conservancy members was limited (page 9). Members are trained in
   governance, but then rotate out of governing roles. No mechanism exists for sharing the
   training knowledge.

   The monitoring and evaluation plan lacks an indicator for measuring training (page 9).

In addition, OIG found that:

   Staffing limitations could impede the operation of a grants facility and the regional study and
   resource centers (page 11). MCA-N and the Namibian Government had not yet reached
   agreement on the appropriate staffing levels.

   MCA-N undertook a review of expenditures at the Namibia Training Authority (page 11). The
   Chief Executive Officer of the Authority was removed from office, but MCA-N officials were
   confident that MCC funds were properly spent.

   Government-imposed fees could affect conservancies in the Tourism Project (page 12). The
   Namibian Government is debating whether to charge fees on private investors that operate
   tourist lodges on the communal conservancies.

To address these concerns, OIG recommends that MCC’s Vice President, Department of
Compact Operations:

1. Coordinate with MCA-N to develop and implement an action plan to identify and address all
outstanding contractor-related construction issues at completed schools (page 5).

2. Review the 47 renovated schools to determine whether MCA-N can take any actions to
improve temporary facilities at the overcrowded schools, and revise the Compact Development
Guidance to include guidelines for countries proposing education projects (page 6).

3. Require MCA-N to train science teachers at the schools renovated under the compact to help
them use the new science equipment effectively and document such training (page 7).

4. Coordinate with MCA-N to determine and document the accuracy of the data reported on the
Learners (any level) participating in the 47 schools sub-activity indicator, and describe efforts
taken to improve data quality and accuracy (page 7).

5. Coordinate with the Department of Congressional and Public Affairs to review MCA-N’s
branding and marking efforts to determine whether additional marking of cars and textbooks
would be beneficial, and document the results (page 8).

6. Direct MCA-N to conduct and document audits as required in the compact (page 8).

7. Coordinate with MCA-N to implement a process for transferring governance training subject
matter to future conservancy board members (page 9).


                                                                                                3
8. Coordinate with MCA-N to assess whether adding an indicator for training of conservancy
members to the monitoring and evaluation plan for Namibia would help measure the project’s
effectiveness, and document the results (page 9).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology, and Appendix II presents MCC’s written comments. Our evaluation of MCC’s
comments is on page 13.




                                                                                         4
AUDIT FINDINGS
Education Project
Five of Six Renovated Schools Visited
Had Construction Deficiencies
OIG visited six schools where renovations had been completed and found five with construction
defects that had not yet been addressed. Defects included significant cracks in walls and
foundations (like the one shown below), leaking ceilings, a rusty roof panel, constant
accumulation of dust on concrete floors, doors unable to lock, broken doors, broken toilets, and
toilet stations with inadequate ceilings to provide cover from inclement weather. School officials
told OIG they had notified MCA-N of the defects and were waiting for MCA-N to reply. The
officials sent letters to MCA-N from 1 to approximately 6 months prior to the OIG visit.




                              A crack is visible on the school floor in
                              the Ohangwena Region. (OIG photograph,
                              May 23, 2013)

To help ensure quality construction, MCC officials said that all MCA infrastructure contracts
include a 12-month defects notification period so that ultimately works are completed in
accordance with contract specifications. The contractor must address any defects brought to its
attention during this period. The schools OIG visited were still within the defects notification
period. According to MCC officials, a certain number of defects are common in construction
projects and the overall quality of the school construction for this project was high.
Nevertheless, to address the defects, the supervisory engineer hired by MCA-N, will work with
the contractor to determine the schedule of repairs.

Well-built, functional schools are a vital component of an effective educational system. If defects
are not corrected, they pose sustainability risks to the school buildings and the materials and
equipment inside, such as furniture and computers. Ultimately, if left uncorrected, the defects
could affect achievement of the project goals. To address this concern, we make the following
recommendation.

   Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
   President of Compact Operations coordinate with Millennium Challenge Account-


                                                                                                 5
   Namibia to implement an action plan to identify and address all outstanding contractor-
   related construction defects at completed schools.

Two of Six Renovated Schools
Were Too Small to Accommodate
Current Students
Two of six renovated schools OIG visited did not have enough classroom space for all of their
students. Some students were working in temporary sheds as makeshift classrooms adjacent to
the school buildings. Furthermore, one principal told OIG that earlier in the year the school had
turned away 37 students seeking to enroll because it lacked capacity. Both of the schools’
principals had asked MCA-N to provide additional classrooms while renovations were under
way, but MCA-N officials had told them it was too late. Sufficient classroom space is necessary
for achieving the compact goal of bolstering the quality of general education.

MCA-N officials said that the schools’ designs were determined many years ago during compact
development, and school enrollment figures might have changed since then, leading to
overcrowding. OIG could not determine the extent to which enrollment figures were used by
MCC during compact development in Namibia. Further, MCC’s Compact Development
Guidance does not establish requirements for education projects, such as using data on
enrollment figures when planning projects.

While enrollment at the schools may fluctuate over time, the renovated schools should
accommodate the community, at least initially. Overcrowded facilities are detrimental to the
project goals because they will diminish students’ learning experiences, reduce the project’s
effectiveness, and tarnish MCC’s reputation. Although time does not allow additional
classrooms to be built, improvements to the temporary facilities might be possible. Absent
specific guidance, MCC risks designing future education projects without all relevant data. To
address these concerns, we make the following recommendation.

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations (1) review the 47 renovated schools to
   determine and document whether Millennium Challenge Account-Namibia can take any
   actions to improve temporary facilities at the overcrowded schools and (2) revise the
   Compact Development Guidance to include guidelines for countries proposing education
   projects.

Teachers Lacked Training on Science
Equipment Provided by MCC
The compact states that MCC funding will be used to advance the projects’ objectives. MCA-N
spent approximately $1 million to provide each of the 47 renovated schools with science
equipment and materials as part of the compact goal of improving the quality of general
education.

Teachers at nearly half of the schools OIG visited were not using the science equipment
effectively. The teachers said they were unfamiliar with the equipment and needed additional
training in its use. New teachers still in training will receive additional science training as part of
the MCC Education Project, but teachers already in the field will not.


                                                                                                     6
If teachers do not use the equipment provided by MCA-N effectively, students’ learning
opportunities will be diminished, and attainment of the project goals may be adversely affected.
To help ensure that schools use the science equipment and materials properly, we make the
following recommendation.

   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, require the Millennium Challenge
   Account-Namibia to train science teachers at the schools renovated under the compact
   to use the new science equipment effectively and document such training.

Monitoring and Evaluation Indicator
Showed an Unexpected Decrease
The May 2013 Table of Key Performance Indicators shows that one of the Education Project
indicators, Learners (any level) participating in the 47 schools sub-activity, has decreased since
the project began. This indicator is part of the MCA-N’s Monitoring and Evaluation Plan and is
used to measure the project’s progress. This decrease indicates that enrollment figures have
declined since the project began. An MCC official said that MCC and MCA-N officials expected
this indicator to increase, and they are investigating the issue. The officials suspect that the data
for this indicator, which were provided by the Ministry of Education, were inaccurate.

MCC’s Policy for Monitoring and Evaluation of Compacts and Threshold Programs, May 1,
2012, establishes data quality standards (Section 4.4.2) and states that data are valid to the
extent that they clearly, directly, and adequately represent the result to be measured.

Inaccurate source data from the government could lead to misrepresentations of the project’s
effectiveness and progress. Without accurate data, MCC and MCA-N officials cannot assess
progress and identify problems and solutions. To address this concern, we make the following
recommendation.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, coordinate with the Millennium
   Challenge Account–Namibia to (1) determine and document the accuracy of the data
   reported on the Learners (any level) participating in the 47 schools sub-activity indicator
   and (2) describe and document efforts taken to improve data quality and accuracy.

Textbooks and Cars Were Not Marked

MCC’s Standards for Global Marking requires that the MCA logo or signature be placed on
any material paid for with MCC funds that is visible to a significant portion of the population.
MCA-N prepared a Branding and Marking Manual, but it does not specifically identify items to
be marked.

 700,000 textbooks provided by MCA-N to students across the country as part of the Education
Project were not marked. An additional 600,000 textbooks were to be provided to students in
late 2013. Similarly, the cars paid for and used by MCA-N were not marked or identified as
being affiliated with MCA-N.



                                                                                                   7
Asked why they did not mark the cars, MCA-N officials said that they did not want to bring
attention to the cars since some Namibians are not supportive of the United States. MCA-N
officials also said that the textbooks were not marked because the large number of them made
marking infeasible. Other Namibian Government officials, however, said that marking the
textbooks might be possible.

The lack of MCA markings on textbooks and cars reduces opportunities for MCC’s outreach and
publicity. To maximize MCC’s outreach efforts in Namibia, we make the following
recommendation.

   Recommendation 5. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, coordinate with the Department of
   Congressional and Public Affairs to review the Millennium Challenge Account–Namibia’s
   branding and marking efforts to determine whether additional marking of cars and
   textbooks to be delivered would be beneficial and document the results.

Tourism Project
Conservancy Grants Were Not Audited
for Environmental Compliance
The Tourism Project includes the awarding of grants to communal conservancies to help
expand tourism and improve the conservancies’ sustainability. The conservancies are
community-based wildlife and tourism organizations established on communal land. Once
registered with the government, a conservancy receives rights over wildlife and tourism
activities. Section C.4 of the compact states:

       Periodic and random audits of the performance of a subset of grant funding
       recipients will be conducted to ensure compliance with both MCC Environmental
       Guidelines and Namibian environmental requirements.

As of June 2013, however, MCA-N had not conducted any of these audits. MCA-N officials said
they were unaware of the requirement to conduct periodic and random audits. MCC officials
said that MCA-N officials had not conducted audits because they had provided an appropriate
level of oversight by auditing grant proposals, reviewing checklists completed by the grantees,
randomly visiting the conservancies, and continuously monitoring the grantees’ compliance with
MCC guidelines.

MCC and MCA-N officials expressed confidence that grant recipients were complying with MCC
and Namibian environmental requirements, but audits would help confirm this. Damage to the
environment would be detrimental to the conservancies’ ability to attract tourists, generate
revenue, and remain sustainable. Environmental damage would also hurt MCA-N and MCC’s
reputations.

To help assess the grantees’ adherence to MCC and Namibian Environmental Guidelines, we
make the following recommendation.

   Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, direct in writing that the Millennium
   Challenge Account-Namibia conduct and document audits as required in the compact.

                                                                                             8
Knowledge Transfer to Conservancy
Members Was Limited
MCA-N hired a contractor to deliver training and technical assistance to conservancy members
to help strengthen their capacities to manage the conservancies. One aspect of the training
focuses on governance, which includes developing and using a constitution and doing financial
planning. The governance training is provided to current governing representatives elected from
the conservancy membership.

Although the contractor provided training to the current governing representatives, no formal
process is in place to support the sharing of training knowledge with future governing
representatives. Representatives are required to rotate after their 3- to 5-year elected terms. In
addition, training courses are not recorded. Training materials are given to training participants,
but may be ineffective for future use because of high illiteracy rates.

Capacity-building goals may not be met if knowledge gained during training courses is not
sustained for future use. In turn, ineffective governance may prevent conservancies from
reaching their full potential and hurt the livelihoods of conservancy members. To address this
concern, we make the following recommendation.

   Recommendation 7. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, coordinate with the Millennium
   Challenge Account–Namibia to implement a process for transferring governance training
   subject matter to future conservancy board members.

Monitoring and Evaluation Plan
Lacks a Training Indicator
As noted, the Tourism Project is designed to strengthen the capacities of communal
conservancies by providing training and technical assistance to conservancy members. MCA-N
and MCC developed a monitoring and evaluation plan that uses indicators to measure progress
toward the expected results throughout the project’s implementation. MCC’s Policy for
Monitoring and Evaluation of Compacts and Threshold Programs, May 1, 2012, states that the
indicators should be useful for providing oversight of the compact, and for sufficiently measuring
the results.

The monitoring and evaluation plan does not include an indicator for conservancy members’
training. MCC officials said that they do not have a specific indicator for training because they
rely instead on other indicators to assess the progress of this project activity. For example, the
Annual general meetings with financial reports submitted and benefit distribution plans
discussed indicator is linked to and reflects the training provided to conservancy members.

MCC officials must take advantage of all available resources to help them assess project
performance. Absent the transparent and uniform documentation of consistent and reliable
information, MCC and MCA-N officials cannot be certain that the project goals are being
attained and properly reported. To address this concern, we make the following
recommendation.



                                                                                                 9
Recommendation 8. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, coordinate with the Millennium
Challenge Account–Namibia to assess whether adding an indicator for training of
conservancy members to the monitoring and evaluation plan for Namibia would help
measure the project’s effectiveness and document the results.




                                                                                   10
OTHER MATTERS
Staffing Limitations Could Impede
Operation of the Grants Facility and
Regional Study and Resource Centers
In addition to renovating schools, the MCA-N Education Project aims to improve (1) vocational
and skills training and (2) community access to information and study resources. To accomplish
these goals, MCA-N helped the Namibian Government establish a National Training Fund to
award grants for vocational and skills training. It also built three regional study and resource
centers or “super libraries” at a total cost of $21 million.

However, these two activities risk not having enough staff. MCA-N and MCC officials are
concerned that the Namibian Government may not provide staff for the management of the
National Training Fund and the regional study and resource centers at levels that MCA-N
recommends. MCA-N officials engaged government officials in discussions but had not yet
reached agreement on staffing. MCA-N officials said that, because these projects are new to
Namibia, government officials were not completely familiar with the staffing requirements.
MCA-N officials planned to tour the centers with government officials and discuss details of
managing the National Training Fund to improve the government officials’ understanding of
staffing needs. MCA-N officials were confident that they would reach agreement on staffing
levels. However, if the levels MCA-N recommends are not attained, the programs and facilities
may not operate effectively, and the Education Project goals could be jeopardized.

Because MCA-N officials are taking actions to mitigate this risk, OIG is not making a
recommendation on this issue.

MCA-N Undertook Review of Spending
The compact states that MCC funding will be used only to further the compact objectives. As
noted above, approximately $2 million in MCC funds were spent to establish a National Training
Fund within the country’s Training Authority.

At the time of the OIG visit, MCA-N officials were reviewing expenditures at the Training
Authority to ensure that the MCC funds were properly spent. According to MCA-N officials, they
undertook this review because the Chief Executive Officer of the Training Authority was
removed from the Training Authority in early 2013 following a forensic audit of activities there.
The results of the forensic audit and the reasons for the subsequent removal of the Chief
Executive were not made public or shared with MCA-N or OIG at the time of the audit.

Judging from the review’s preliminary results, MCA-N officials were confident that MCA-N funds
provided to the Training Authority were properly spent. The officials said that MCA-N monies
were separated from other Training Authority accounts, and the Training Authority has reported
to MCA-N how the funds were spent. MCA-N has asked the Training Authority to provide
additional details, including receipts. While the preliminary results are promising, funds spent
improperly would affect realization of the compact objectives. Because MCA-N officials are
monitoring these expenditures, OIG is not making a recommendation on this issue.


                                                                                              11
Government-Imposed Fees Could
Affect Conservancies
One component of the MCA-N Tourism project involves improving the capacities of communal
conservancies to attract investments in ecotourism. MCA-N has awarded grants to selected
conservancies to help them partner with private investors to enhance their facilities and increase
visits by tourists. However, the conservancies’ ability to attract private investors, and the
continued financial sustainability of the conservancies themselves, may be diminished by
government-imposed fees.

The Namibian Ministry of Lands and Resettlement collects fees on private investors that operate
tourist lodges on the conservancies. In recent years, these fees were under a moratorium. The
Ministry has expressed interest in recapturing the fees, and has lifted the moratorium in certain
areas of the country. Officials at the Namibian Ministry of Environment and Tourism (the Ministry
working with MCA-N on the Tourism Project) and MCA-N are concerned that private investors
will be reluctant to invest in the conservancies if the leasehold fees are collected. With reduced
private investment, conservancies may not reach their full economic potential. MCA-N officials
said that representatives from both ministries are working together to determine a course of
action.

Because MCA-N is discussing the ramifications of fees with the ministries involved and
monitoring the government’s actions, OIG is not making a recommendation on this issue.




                                                                                               12
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with all eight recommendations and has taken final
action on six.

Recommendation 1. MCC agreed to implement an action plan to identify and address all
outstanding contractor-related construction defects at completed schools. MCC agrees with the
action plan that MCA-N has in place for identifying and addressing all outstanding contractor-
related construction defects at completed schools. Working on MCA-N’s behalf, the supervisory
engineer will conduct inspections, issue notices for correction, and approve corrections made.
MCA-N and MCC will also visit the schools regularly, and MCC will continue to monitor progress
to ensure correction of defects. OIG acknowledges MCC’s management decision and final
action.

Recommendation 2. MCC agreed to review the 47 renovated schools to determine and
document whether MCA-N can take any actions to improve temporary facilities at overcrowded
schools, and to revise the Compact Development Guidance to include guidelines for countries
proposing education projects. MCC has worked with both MCA-N and the Ministry of Education
to improve the temporary facilities at overcrowded schools. The Ministry determined that 20 of
the 47 schools need additional classrooms, and MCA-N is procuring prefabricated or modular
classrooms for these schools.

In addition, MCC will require MCAs in future compacts with education projects to conduct
periodic local stakeholder engagement on school selection, rationale, process, timeline, and
interventions after the compact’s start. OIG acknowledges MCC’s management decision and
final action.

Recommendation 3. MCC agreed to require MCA-N to train science teachers at renovated
schools to use science equipment effectively and document such training. MCC requested that
MCA-N address this concern. In turn, MCA-N arranged for the science equipment vendors to
provide additional training to teachers. In addition, MCA-N is working to strengthen the teacher
training provided by the Ministry of Education and will provide MCC with reports as training is
completed. OIG acknowledges MCC’s management decision and final action.

Recommendation 4. MCC agreed to coordinate with MCA-N to determine and document the
accuracy of the data reported on the Learners (any level) participating in the 47 schools sub-
activity indicator and document efforts taken to improve data quality and accuracy. MCC and
MCA-N have been investigating this issue and have used the services of a firm specializing in
data quality review. The firm’s preliminary findings indicate that the data are generally accurate,
showing that enrollment figures are not increasing as initially expected. As a result, MCC and
MCA-N will explore the apparent disconnect between the target and the indicator data, which
were expected to increase.




                                                                                                13
In addition, MCA-N is contracting a data quality consultant to help build capacity in the
government entities that provide data for the compact. OIG acknowledges MCC’s management
decision. Final action will occur when MCC provides OIG the results of the data quality review.

Recommendation 5. MCC agreed to coordinate with the Department of Congressional and
Public Affairs to review the MCA-N’s branding and marking efforts to determine whether
additional marking of cars and textbooks to be delivered would be beneficial and document the
results. MCA-N is installing labels on cars and expects to finish by January 2014. MCC and
MCA-N determined that labeling the textbooks would not be cost-effective and would delay their
delivery. However, MCA-N has begun an extensive informational campaign associated with the
textbook procurement. OIG acknowledges MCC’s management decision and final action.

Recommendation 6. MCC agreed to direct in writing that MCA-N conduct and document audits
as required in the compact. In November 2013, MCC sent a letter to the MCA-N Chief Executive
Officer requesting that MCA-N conduct and document audits as required in the compact. OIG
acknowledges MCC’s management decision and final action.

Recommendation 7. MCC agreed to coordinate with MCA-N to implement a process for
transferring knowledge of governance training subject matter to future conservancy board
members. MCC and MCA-N are working on a sustainability strategy for the conservancy
activity. MCA-N and the Ministry of Environment and Tourism are attempting to establish a trust
fund administered by a Namibian association and supported by stakeholder contributions. OIG
acknowledges MCC’s management decision. Final action will occur when MCC provides OIG
MCA-N’s final sustainability strategy.

Recommendation 8. MCC agreed to coordinate with MCA-N to assess whether adding an
indicator for training of conservancy members to the monitoring and evaluation plan for Namibia
would help measure the project’s effectiveness and document the results. MCC acknowledged
that a training indicator might have been useful if established earlier, but determined that adding
the indicator would not be necessary or useful at this time. However, MCC will use a variety of
other indicators and information to assess and evaluate the training activity. OIG acknowledges
MCC’s management decision and final action.




                                                                                                14
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
OIG conducted this audit of the MCC-funded Program in Namibia in accordance with generally
accepted government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

MCC signed a compact with the Government of Namibia for $305 million that entered into force
in September 2009. This audit focused on the $142 million Education Project and the
$68 million Tourism Project.

We conducted our fieldwork from April 4 to August 1, 2013, at MCC headquarters in
Washington, D.C., and visited MCA-N in Windhoek from May 13 to May 31, 2013. In Namibia,
we visited ten schools under construction or newly renovated. We also visited Etosha National
Park and four communal conservancies.

Methodology
To answer the audit objective, we met with MCC officials to gain an understanding of compact
activities. We visited Namibia to observe ongoing activities and interview MCA-N staff,
contractors, and program beneficiaries. We analyzed documents and reports to identify
concerns.

We examined the internal control environment by identifying, assessing, and testing the relevant
controls. In particular, we reviewed MCA-N’s processes for:

  Awarding major procurements by comparing actions taken with the MCA-N procurement
  guidelines.

  Awarding grants by confirming their compliance with MCA-N grant criteria.

  Distributing textbooks by randomly selecting textbooks at schools to confirm that they were
  provided by MCA-N.

  Reviewing contractor health and safety checklists to confirm they were being completed.

The audit team met with MCC staff in Namibia and in Washington, D.C. In addition, we met with
MCA-N staff, contractors, and beneficiaries in Namibia. Specifically, we performed the following:

   Interviewed MCC and MCA-N officials to gain an understanding of the project activities.

   Interviewed contractors, Namibian Government officials, other donors, and project
   beneficiaries to gain their perspectives on the risks facing the project.



                                                                                              15
                                                                                        Appendix I


   Reviewed documents supporting the project activities, including the compact, due diligence
   documents, monitoring and evaluation plan, contracts, and progress reports.

The audit team judgmentally selected 10 schools to visit out of 47 being renovated as part of the
Education Project. At each school, the team confirmed that construction was under way or had
taken place and met with officials to discuss the renovations. The schools were selected
judgmentally in order to allow the team to visit as many schools as possible during our limited
time in Namibia. Similarly, the audit team judgmentally selected 4 communal conservancies out
of 31 participating in the Tourism Project to visit and confirm their participation. The
conservancies were selected judgmentally to allow the team to visit as many as possible during
our limited time in Namibia.

The audit team judgmentally selected textbooks at schools visited to confirm they had been
provided by MCA-N. Because the textbooks were distributed to many schools throughout the
country, the audit team was required to judgmentally select textbooks provided to the schools
OIG would be visiting. Similarly, the audit team could not visit all schools under construction, so
the team limited its review of health and safety checklists to the schools OIG visited.

The audit team judgmentally selected conservancy grants for review that were awarded to the
conservancies visited by the OIG team. Finally, the audit team judgmentally selected the six
largest MCA-N procurements for review to determine compliance with MCA-N’s procurement
guidelines.

Because the audit team used judgmental sampling as described above, the results cannot be
projected to the entire populations involved.




                                                                                                16
                                                                                    Appendix II



MANAGEMENT COMMENTS



DATE:       November 27, 2013


TO:           Robert Fry
              Acting Deputy Assistant Inspector General
              Office of Inspector General
              Millennium Challenge Corporation

FROM:         Jonathan Bloom /s/
              Deputy Vice President
              Department of Compact Operations
              Millennium Challenge Corporation

RE:           MCC’s Management Response to the OIG draft report on the “Audit of the
              Millennium Challenge Corporation Funded Program in Namibia,” Draft Audit
              Report No. M-000-14-00X-P

MCC appreciates the opportunity to respond to the OIG draft report on the “Audit of the
Millennium Challenge Corporation Funded Program in Namibia.”

OIG Recommendation 1: We recommend that the Millennium Challenge Corporation’s Vice
President of Compact Operations coordinate with Millennium Challenge Account-Namibia to
implement an action plan to identify and address all outstanding contractor-related construction
defects at completed schools.

MCC’s Management Response: MCC concurs with this Recommendation.

The correction of construction defects at the schools rehabilitated under the Compact is subject
to the terms of standard contracts that MCC ensures are used in program implementation. In the
case of the schools, MCA-Namibia uses a modified form of the FIDIC Red Book Construction
Contract 1999 edition. That form of contract requires that the supervising engineer for each


                                                                                             17
                                                                                       Appendix II


construction project identify and track the correction of latent defects in the completed schools
that occur during the defects notification period (which lasts for one year after turnover of the
rehabilitated schools from the contractor to the beneficiaries). MCA-Namibia maintains a
performance security and a percentage of regular contract payments to ensure that the contractor
completes all work, including the remedy of defects under the contract.

Pursuant to the terms of the construction contracts, MCA-Namibia already has an action plan in
place to identify and address all outstanding contractor related construction defects at completed
schools. MCC is in agreement with the action plan and has an active role in support for the plan
(i.e., attending site meetings, inspections, and monitoring work under all construction contracts
with MCA-Namibia). The action plan is implemented by the supervising engineer and includes
the following steps:

    1. conduct a site inspection at the end of the defects notification period;

    2. prepare a list of latent defects identified during the inspection (see sample list: Annex
       A);

    3. provide notice to the contractor to correct all latent defects within a specified time frame
       (see sample notice to contractor: Annex B); and

    4. issue the Performance Certificate upon correction of all latent defects and approval by
       the supervising engineer.


MCA-Namibia expects the Performance Certificates for completed schools in package 2 (which
includes all of the schools inspected by OIG) to be issued by the Supervising Engineer by the
end of 2013. Once the certificate is issued, MCA-Namibia will make the final payment under
the contract to the contractor.

MCA-Namibia takes the additional action of visiting the schools regularly during and after
construction and accepts feedback from the schools’ administration. Defects that are identified in
this manner become action items for the supervising engineer and contractor.

The MCC Resident Country Mission and MCC headquarters staff have been actively involved in
the site visits for completed schools and the identification and tracking of latent defects. MCC is
satisfied with the level of response by MCA-Namibia and contractors adherence to the terms of
the respective construction contracts. MCC will continue to monitor progress on all school
construction contracts and to work with MCA-Namibia to ensure correction of any defects
identified at the schools.

This constitutes MCC’s Management Decision and Notice of Final Action.

OIG Recommendation 2: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operation (1) review the 47 renovated schools to determine
and document whether Millennium Challenge Account-Namibia can take any actions to improve

                                                                                                18
                                                                                      Appendix II


temporary facilities at the overcrowded schools and (2) revise the Compact Development
Guidance to include guidelines for countries proposing education projects.

MCC’s Management Response: MCC concurs with this Recommendation.

2 (1) Since the submission of the initial OIG draft Recommendations, MCC has engaged MCA-
Namibia as well as the Ministry of Education to find a solution to the issue of temporary
facilities at overcrowded schools. Both MCA-Namibia and the Ministry of Education (MOE)
have agreed on a plan to procure pre-fabricated or modular classrooms (see attached letter of
approval from MOE: Annex C). The MOE has identified schools in need of additional
classrooms in response to the OIG’s findings. Currently, MCA-Namibia has procurement
tenders in process for additional classrooms at 20 of the 47 schools.

It is important to note that the MCC Education Division conducted extensive due diligence with
the MOE on projected enrollments and potential demand for classroom space at the beginning of
the Compact in order to develop sound plans for the construction of new school
classrooms. While due diligence performed early in Compact development informed school
selection and scope, this did not account for later MOE decisions regarding school restructuring,
mobility within the targeted population, and parental choices during the course of the Compact.

2 (2) For future compacts with education projects, MCC will include language in the compact
program implementation agreement requiring MCAs to conduct periodic local stakeholder
engagement (at the school and community level) on school selection, rationale, process, timeline
and interventions after the Compact’s start. The MCA-Namibia team has developed protocols
which can serve as a useful model for consulting locally and nationally on infrastructure options
and other work plans in response to unexpected changes in school enrolment.

This constitutes MCC’s Management Decision and Notice of Final Action.

OIG Recommendation 3: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, require the Millennium Challenge Account-
Namibia to train science teachers at the schools renovated under the compact to use the new
science equipment effectively and document such training.

MCC’s Management Response: MCC concurs with this Recommendation.

MCC has requested that MCA-Namibia address this concern. MCA-Namibia has requested that
the vendors for the science lab equipment provide additional training to teachers on proper use of
equipment. Additionally, MCA-Namibia has worked with the Continuous Professional
Development Unit (CPD) of the MOE, which provides professional in-service training for
teachers and administrators, to develop a proposal for training teachers in the use of science lab
equipment. MCA-Namibia has allocated additional funding for this training which is scheduled
to start in early 2014. At the advice of MCC, MCA-Namibia is also working through CPD to

                                                                                               19
                                                                                     Appendix II


ensure that the Faculty of Education (science teaching section at the University of Namibia) and
regional CPD coordinating committees work to institutionalize this teacher training effort. These
efforts are documented in MCA quarterly reporting. At MCC request, MCA-Namibia will
provide MCC with reports on concluded training once the training is completed. MCC will also
monitor science learning outcomes in the targeted areas.

This constitutes MCC’s Management Decision and Notice of Final Action.

OIG Recommendation 4: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operation, coordinate with the Millennium Challenge
Account–Namibia to (1) determine and document the accuracy of the data reported in the
Learners (any level) participating in the 47 schools sub-activity indicator and (2) describe and
document efforts taken to improve data quality and accuracy.

MCC’s Management Response: MCC concurs with this Recommendation.

4 (1) MCC and MCA-Namibia have cooperated to determine and document the accuracy of the
data reported in the Learners (any level) participating in the 47 schools sub-activity indicator.
First, MCA-Namibia commissioned an independent Data Quality Review (DQR) in 2011 which
determined that the data source for this indicator was considered fit for purpose. However, given
the observed and unexpected decreases in enrollment, MCC and MCA-Namibia began further
investigating this issue in late 2012.

As result of that investigation, MCA-Namibia and MCC learned that some of the Compact-
supported schools split and others expanded to include new grades. Even though MCA-Namibia
is now able to compare “apples to apples,” there continue to be some small fluctuations in annual
enrollment data (i.e., an increase or decrease of approximately 1,000 students or 4% of
enrollment) from one year to the next. Overall, however, enrollment appears fairly flat, and does
not seem to be increasing as initially expected and reflected in the targets for this indicator.

As a final step in this investigation, MCA-Namibia asked the DQR firm to conduct another
independent assessment of the indicator. Although the final report for this exercise is not
available yet, the DQR firm’s out-brief presentation (see Annex D) indicates that the data source
generally continues to be fit for purpose with respect to student numbers but cautions that data
for some schools could be missing (from time to time) as was the case for one of the schools
being supported by the Compact. The DQR firm also recommends that the baseline and
historical indicator reports be updated to reflect their findings.

4 (2) In order to improve data quality going forward, MCA-Namibia is contracting a data quality
consultant to help build capacity of government entities, such as the MOE, providing data for the
Compact. In addition, MCC and MCA-Namibia will update the Indicator Tracking Table, which
tracks performance on indicators outlined in the M&E Plan, with values that have been informed
by the DQR mission. Finally, MCC and MCA-Namibia will explore the apparent disconnect

                                                                                              20
                                                                                     Appendix II


between the indicator values reported thus far and the target, which anticipated an increase of
nearly 10 percent over the baseline value.

This constitutes MCC’s Management Decision.

OIG Recommendation 5: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operation, coordinate with the Department of Congressional
and Public Affairs to review the Millennium Challenge Account–Namibia’s branding and
marking efforts to determine whether additional marking of cars and textbooks to be delivered
would be beneficial and document the results.

MCC’s Management Response: MCC concurs with this Recommendation.

Pursuant to the applicable MCC standards for marking and branding, MCA-Namibia is in
process to procure labeling for vehicles purchased with MCC funds. The procurement and
installation of the signs/logos is expected to be completed by January 2014.

MCC has also discussed the branding and marking of textbooks with MCA-Namibia. To date
some 800,000 textbooks have been distributed to Namibian schools and MCA-Namibia’s
vendors have begun the textbook distribution process for the last tranche of textbook
procurement (another 800,000 textbooks). After consultation with MCA Namibia, MCC has
concluded that it is not cost effective to proceed with branding and marking textbooks already
distributed and textbooks that are in process of distribution. The cost of branding already
distributed text books is deemed prohibitive at this late stage of the Compact. Branding of
textbooks now in the late stages of procurement would result in substantial delays in getting
textbooks to schools prior to the start of the school year in February 2014. Since previous
tranches of textbook procurements and delivery to schools were delayed, MCC and MCA-
Namibia have determined that the reputational risk for any delay in the distribution of textbooks
under the final tranche to allow for branding to occur is too high and should be avoided.

To mitigate the lack of branding on MCC funded textbooks and to raise MCC’s visibility as a
donor, MCA-Namibia has put in place an extensive informational campaign associated with
MCA-Namibia’s procurement of textbooks.

This constitutes MCC’s Management Decision and Notice of Final Action.

OIG Recommendation 6: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct in writing that the Millennium Challenge
Account-Namibia conduct and document audits as required in the compact.




                                                                                              21
                                                                                      Appendix II


MCC’s Management Response: MCC concurs with this Recommendation.

MCC has written a letter to the MCA-N CEO to conduct and document audits as required by the
Compact agreement (see Annex E).

This constitutes MCC’s Management Decision and Notice of Final Action.

OIG Recommendation 7: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, coordinate with the Millennium Challenge
Account–Namibia to implement a process for transferring governance training subject matter to
future conservancy board members.

MCC’s Management Response: MCC concurs with this Recommendation.

MCC currently is working with MCA-Namibia and its consultants to establish strong governance
practices in the 31 conservancies that the Conservancy Development Support Services (CDSS)
activity supports. To help ensure that conservancies continue to receive this support after the
Compact ends, MCA-Namibia is working on a sustainability strategy for the sector that includes
a sustainability taskforce led by the Ministry of Environment and Tourism and MCA Namibia
that seeks to establish a trust fund administered by NACSO and supported by stakeholder
contributions that will provide this support to the conservancies as part of a conservancy support
extension system.

This constitutes Management Decision.

OIG Recommendation 8: We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, coordinate with the Millennium Challenge
Account–Namibia to assess whether adding an indicator for training of conservancy members to
the Monitoring and Evaluation Plan for Namibia would help measure the project’s effectiveness
and document the results.

MCC’s Management Response: MCC concurs with this Recommendation.

MCC has reviewed the Conservancy Development Support Services (CDSS) activity-related
indicators in the M&E Plan and acknowledges that tracking training could have been a useful if
such an indicator had been established earlier in the Compact period. However, given that only
one year remains in the Compact and remaining training sessions are to be provided only to
people who have already been trained on some topics, adding an indicator to track training of
conservancy members does not seem necessary or useful for tracking performance of the activity
at this stage.

Despite the lack of a training indicator, the M&E Plan does speak to the importance of
measuring and reporting on what has been accomplished under this activity. For example, a

                                                                                               22
                                                                                    Appendix II


number of the outcome-level monitoring indicators (e.g., Annual General Meetings with
financial reports submitted and benefit distribution plans discussed and share of conservancy
revenue paid out in dividends and/or spent on community services) are linked to the training
provided under the intervention. On a related note, MCA-Namibia has hired an independent
evaluator to assess other key outcomes of CDSS technical assistance, including changes in
business partnerships, conservancy revenue, conservancy governance, distribution of benefits,
and overall household wellbeing. While training of conservancy management is a key output of
the intervention that has not been reported on in the Indicator Tracking Table to date, MCC’s
perspective is that the outcome-level monitoring indicators and the evaluation will be useful in
helping us understand and report on the effectiveness and results of the Activity.

This constitutes MCC’s Management Decision and Final Action.

If you have any questions or concerns, please contact Monique Ricker with MCC’s Office of
Quality Assurance at 202-521-7235 or rickermt@mcc.gov.

Enclosure
       Annex A: Sample list of latent defects (rec 1)

       Annex B: Notice to contractor (rec 1)

       Annex C: MOE approval letter (rec 2)

       Annex D: DQR Presentation (rec 4)

       Annex E: MCC letter to MCA-N CEO (rec 6)




                                                                                             23
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
